     Statement of Gregory H. Friedman

             Inspector General

         U.S. Department of Energy


                 Before the

Subcommittee on Oversight and Investigations

                   of the

    Committee on Energy and Commerce

       U.S. House of Representatives




                                 FOR RELEASE ON DELIVERY
                                                      9:30 AM
                                         Friday, April 20, 2007
Mr. Chairman and members of the Subcommittee, I am pleased to be here at your request to

testify on the concerns expressed in your April 5th letter regarding operations at the Los Alamos

National Laboratory.



Background

In January of this year, I testified before this Subcommittee on the special inquiry conducted by

my office regarding the diversion of classified data from the Los Alamos National Laboratory.

Specifically, at the request of the Secretary of Energy, we examined the efforts of the

Department and its contractors to protect classified information and the steps that were taken to

ensure that only authorized individuals had access to such information. Our report on this matter

was issued on November 27, 2006.



Office of Inspector General Review

The Office of Inspector General (OIG) found that the security environment at Los Alamos was

inadequate, despite the expenditure of millions of dollars by the National Nuclear Security

Administration to upgrade various components of the Laboratory’s security apparatus.



In particular, related to the cyber security control structure, we found that:

   •   Certain computer ports, which could have been used to inappropriately migrate

       information from classified systems to unclassified devices and computers, had not been

       disabled;

   •   Classified computer racks were not locked;




                                                  1
   •   Certain individuals were inappropriately granted access to classified computers and

       equipment to which they were not entitled;

   •   Computers and peripherals that could have been used to compromise network security

       were introduced into a classified computing environment without approval; and,

   •   Critical security functions had not been adequately separated, essentially permitting

       system administrators to supervise themselves and override controls.



In many cases, Laboratory management and staff had not: developed policies necessary to

protect classified information, enforced existing safeguards, or provided the attention or

emphasis necessary to ensure protective measures were adequate. Some of the security policies

were conflicting or applied inconsistently. We also found that Laboratory and Federal officials

were not as aggressive as they should have been in conducting security reviews and physical

inspections. In short, our findings raised serious concerns about the Laboratory’s ability to

protect both classified and sensitive information systems.



The OIG also reviewed certain aspects of the security clearance process in place for Laboratory

employees. We identified particular weaknesses associated with this program which were

discussed in a closed session of this Subcommittee in January of this year.



Departmental Response

After this incident was discovered, Department and Laboratory management officials launched

several efforts to identify and correct control deficiencies that contributed to an environment in

which classified information could be removed without authorization. In particular, the Deputy

Secretary directed an immediate review of policies and practices related to computer ports at

                                                 2
each of the Department’s facilities. Further, the Secretary established two high-level Task

Forces to address our findings. The reports of the Secretary’s Task Forces and a list of the

proposed corrective actions were provided to my office last week.



The report from the Department’s Committee to Review the Cyber Security-related

Recommendations indicated concurrence with the OIG’s report and specified that the

Department had initiated corrective actions that involved revising policy, securing unneeded

ports, limiting access and privileges, and maintaining separation of duties. The report also

indicated that controls over security planning and accreditation and physical inspections were to

be strengthened and that corrective actions would be tracked to resolution.



The Personnel Security Program Review Task Force analyzed the OIG report and agreed that

there were personnel security program weaknesses. The Task Force addressed the security

clearance issues raised in our November 2006 report. Specifically, it identified and developed

recommendations for improving Department-wide training, policy, quality assurance and

oversight, and organizational structure. Additional details are contained in the Task Force’s

report, which has been marked by the Department as “Official Use Only.”



Many of the corrective actions outlined by the two Task Forces are in progress. However,

implementation and execution are key. If properly carried out, the corrective actions should

improve classified operations at Los Alamos and could help prevent similar incidents at

Departmental facilities around the complex.




                                                3
Issues Requiring Continuing Attention

As I have testified on several occasions, the Department must do a better job addressing the

recurring challenges it faces. Specifically:


    1. With regard to the current matter, the Department must ensure that all actions and

        recommendations outlined in the Task Force Reports are formalized into policy and

        adopted as practice throughout the Department. As part of that effort, these policies

        should be incorporated into all facility contracts.


    2. To achieve the recommended reforms, the Department must establish firm schedules

        with specific implementation timelines and performance metrics.


    3. Both Federal and contractor officials need to manage more aggressively. As part of that

        process, the Department needs to ensure that its Federal contract management function is

        adequately staffed and that the skill mix is appropriate. In addition, Department and

        Laboratory officials must develop a more comprehensive regimen of compliance testing

        and follow-up to ensure that security policies and procedures are rigorously followed.


    4. Individuals and institutions, both Federal and contractor, must be held accountable for

        failure to follow established security measures. As it has begun to do in its response to

        the recent Los Alamos incident, the Department should emphasize that the failure to

        properly protect classified information and materials will have meaningful

        consequences.




                                                  4
Finally, consistent with our November 2006 recommendation, we continue to believe that the

Department should perform a risk-based evaluation of cyber security funding at Los Alamos.

The objective of this evaluation would be to ensure that the resources are available for complete

implementation of the revised cyber security policies and procedures.



Ongoing Inspector General Efforts

For the past five years, we have identified both cyber and physical security as pressing

management challenges. For these reasons, and because of the recent incidents, the Office of

Inspector General continues to be concerned about security across the complex. We have

ongoing activities to examine information technology and systems security; implementation of

revised security measures; disposal of sensitive property; and, issues related to protective force

training.



In addition to our on-going work, the full Committee, in January 2007, requested that the

Government Accountability Office (GAO) examine the security of the Department’s unclassified

and classified information networks and its cyber security programs. My office coordinates

closely with GAO on reviews of the Department, and we believe that the assessment requested

by the Committee will lead to a strengthened agency-wide security posture. My office will

continue to conduct audit, inspection, and investigative work that will complement the review

requested by the Committee.



Mr. Chairman, this concludes my statement and I would be pleased to answer any questions you

may have.




                                                 5
